IN THE SUPREME COURT
OF THE UNITED STATES OF AMERICA

UNITED STATES OF AMERCIA,
Plaintiff-Respondent,
vs.
EVERETT JEROME TRIPODIS
Defendant-Petitioner.
APPELLATE CASE NO. 20-14724-D
DISTRICT COURT CASE NO. 1:18-CR-00240-TWT

CERTIFICATE OF SERVICE
Under the penalty of perjury, in compliance with 28 U.S.C. § 1746,1 hereby
certify that a true and exact copy of the foregoing was provided to the opposing
party via First Class U.S. mails. Said pleading was sent using the prison mailbox
system6 at Robert A. Deyton Detention Facility in Lovejoy, Georgia. It was
properly directed to the United States Attorney’s Office, c/o Rebeca Ojeda, 75 Ted
Turner Drive S.W., Atlanta, Georgia 30303. Sufficient postage was affixed.
This 0-2 day of

2021.

Signed:
Everett J. Tripodis, Petitioner (pro se)

6 Prisoners' documents are deemed filed the moment they are delivered to prison
authorities for mailing. Houston v. Lack, 487 U.S. 266 (1988).

26

